                    U.S. SMALL BUSINESS ADMINISTRATION
                       OFFICE OF INSPECTOR GENERAL
                             Washington, DC 20416




                                                   Audit Report
                                                   Issue Date: March 26, 2001
                                                   Report Number: 2-14


TO:             Herbert L. Mitchell, Associate Administrator,
                 Office of Disaster Assistance

                Michael C. Allen, Area Director,
                Atlanta Disaster Office - Area 2


FROM:           Robert G. Seabrooks,
                Assistant Inspector General for Auditing

SUBJECT:        Audit of an Early Defaulted Disaster Loan to
                [FOIA EX. 6]


         The Office of Inspector General, Auditing Division, is conducting an ongoing
evaluation of Early Defaulted Disaster Loans. The results of early defaulted disaster loan
audits are being provided on each individual loan reviewed. Our results are intended to
bring deficient processing issues to your attention so that you can assess whether any
actions are needed to prevent similar issues in the future.

         The Small Business Administration (SBA) disaster loan program is the primary
Federal disaster-assistance program for funding long-range recovery for victims of
hurricanes, floods, earthquakes, tornadoes, wild fires, and other physical disasters.
Disaster loans help business owners, individuals, and nonprofit organizations to fund
rebuilding, replace personal property, and compensate for economic injury. When disaster
victims need to borrow to repair or replace uninsured damages, the low interest rates and
long terms available from SBA make recovery affordable. Standard Operating Procedure
(SOP) 50 30 4 and 50 31 2 provide specific policy and procedural guidance for making
disaster loans.

         SBA approved a $117,300 disaster loan to [FOIA EX. 6] (borrower) in [FOIA
EX. 6] to repair/replace damaged manufactured housing, personal property, clean-up and
debris removal, and refinancing to satisfy an outstanding lien. The borrowers made only
four payments and defaulted in November 1999. The borrowers then abandoned the
property with SBA placing it in liquidation in September 2000. In February 2001 the
property was auctioned resulting in a $21,888 recovery for SBA.

                               OBJECTIVES & SCOPE

         The objective of the audit was to determine whether the early loan default was
due to: SBA non-compliance with its policies and procedures, borrower non-compliance
with the loan agreement, or borrower misrepresentations.

        We reviewed documents in the SBA loan file and interviewed the borrower.
Borrower tax returns, financial statements, and accounting records were examined.
Additionally, we analyzed the borrower’s credit report and bankruptcy filings. Finally, the
borrower’s cash flow and repayment ability were recalculated.

        Our audit was conducted during the period June through September 2001. The
audit was conducted in accordance with Government Auditing Standards.

                                   AUDIT RESULTS

Borrowers Lacked Repayment Ability

        The borrower defaulted on the SBA loan because of a lack of repayment ability.
This occurred because SBA miscalculated a portion of the borrower’s wages. Further, a
discrepancy in financial information reported on the application was not reconciled against
wages shown on the Federal tax return or other verifiable sources. Consequently, the
wages used to calculate repayment ability were overstated.

         SOP 50 30 4 states cash flow, not collateral, is the basis for establishing
repayment ability. This would provide reasonable assurance of an applicant's ability to
repay any proposed loan. Also, the SOP provides that [loan officers] must exercise credit
analysis skills, use discretion, and evaluate all information. Only reasoned and thorough
analysis of all relevant facts can help balance prudent lending of subsidized funds and
sympathetic consideration of the disaster victim's needs. In addition, the SOP requires
financial information reported on the application should be consistent with the tax return
or other verified sources. If there is a discrepancy of more than $500 annually between
the reported and verified income, a determination of the correct amount must be
documented on the Loan Officer’s Report.

        SBA did not reconcile the wage discrepancy. For example, there was a $4,623
difference between the borrowers’ 1997 Federal tax return ($43,137) and the application
($47,760). We found no evidence the loan officer determined the correct amount to use
nor documentation of the Loan Officer Report, as required. In fact, wages of $48,550
were used to determine repayment ability. We concluded the borrowers’ wages for
determination of repayment ability totaled $43,845, not $48,550 per the Loan Officer’s
Report. Consequently, the loan officer overstated wages by $4,705 ($48,550 - $43,845)
because of a calculation error and acceptance of unsubstantiated wages.



                                             2
    Calculation error SBA calculated the borrower’s pay on a bi-weekly basis
    ($120X26 = $3,120). The borrower’s pay stub indicated this was a monthly payment
    ($120X12 = $1,440). Therefore, SBA overstated wages by $1,680.

    Unsubstantiated wages SBA accepted the borrower’s statement that the co-applicant
    earned $13,000 annually. The actual pay stub indicated the weekly wage was
    $191.82 or $9,975 on an annualized basis ($191.82 X 52 weeks). There was no
    evidence SBA reconciled these amounts. Therefore, SBA overstated wages by $3,025.

        Without the $4,705 ($1,680 + $3,025), the borrower’s repayment ability would
have been negative as shown in the following table:

                                            SBA                   Audit
               Description               Calculated            Determined
         Annual Income                      $48,550                $43,845
         Gross Monthly Income                4,046                  3,654
         Times Maximum Acceptable
         Fixed Debt (40%)                    1,618                  1,462
         Monthly Fixed Debt                 <1,030>                <1,030>
         Incr. Ins. Prem.                    <38>                   <38>
         = Cash Available                     550                    394
         - SBA Payment                        533                    533
         = Remaining Cash Flow                 17                   <139>



         The contents of this report were discussed with the Atlanta Disaster Area Office
on December 4, 2001. The Assistant Area Director for Loan Processing responded he
agreed completely with our findings. He stated that the loan officer did not follow
established procedures in documenting income in cases where the applicant cites income
that is different from what the return [IRS transcript] shows.

        We suggest that you periodically remind loan officers of the importance of
following established SBA procedures in documenting income where there is a difference
between the IRS transcript and applicant provided information. You should maintain
documentation of any actions you take to address the above issue for future review and
follow-up.




                                            3
